No. 20-659

 

 

IN THE
Supreme Court of the United States
LARRY THOMPSON,
Petitioner,
Vv.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this
11 day of June, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies
of the foregoing BRIEF OF HOME SCHOOL LEGAL DEFENSE ASSOCIATION
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS by placing said copies in
FEDERAL EXPRESS, PRIORITY OVERNIGHT, addressed as listed below.

Amir H. Ali Richard Paul Dearing
Roderick & Solange MacArthur Devin Andrew Slack

Justice Center New York City Law Department
501 H Street, NE 100 Church Street
Suite 275 New York, NY 10007
Washington, DC 20002 rdearing@law.nyc.gov
amir.ali@macarthurjustice.org dslack@law.nyc.gov

   

NS. ADAMS, LEGAL & COMMERCIAL PRINTERS
15 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 11 day of June, 2021.

IN PIERANGELI
NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

——

 

 
